<html>
<title> - TO PROMOTE FREEDOM AND DEMOCRACY IN VIETNAM; AND CONCERNING EFFORTS TO PROVIDE HUMANITARIAN RELIEF TO MITIGATE THE EFFECTS OF DROUGHT AND AVERT FAMINE IN THE HORN OF AFRICA, PARTICULARLY SOMALIA, ETHIOPIA, DJIBOUTI, AND KENYA</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
TO PROMOTE FREEDOM AND DEMOCRACY IN VIETNAM; AND CONCERNING EFFORTS TO 
  PROVIDE HUMANITARIAN RELIEF TO MITIGATE THE EFFECTS OF DROUGHT AND 
  AVERT FAMINE IN THE HORN OF AFRICA, PARTICULARLY SOMALIA, ETHIOPIA, 
                          DJIBOUTI, AND KENYA

=======================================================================


                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,

                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

                       H.R. 1410 and H. Res. 361

                               __________

                            FEBRUARY 8, 2012

                               __________

                           Serial No. 112-124

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/




                  U.S. GOVERNMENT PRINTING OFFICE
72-790                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                                 ______


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           DONALD M. PAYNE, New Jersey
TOM MARINO, Pennsylvania             KAREN BASS, California
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
ROBERT TURNER, New York


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 1410, To promote freedom and democracy in Vietnam...........     3
  Amendment in the nature of a substitute to H.R. 1410 offered by 
    the Honorable Christopher H. Smith, a Representative in 
    Congress from the State of New Jersey, and chairman, 
    Subcommittee on Africa, Global Health, and Human Rights......    23
H. Res. 361, Concerning efforts to provide humanitarian relief to 
  mitigate the effects of drought and avert famine in the Horn of 
  Africa, particularly Somalia, Ethiopia, Djibouti, and Kenya....    42
  Amendment in the nature of a substitute to H. Res. 361 offered 
    by the Honorable Donald M. Payne, a Representative in 
    Congress from the State of New Jersey........................    48

                                APPENDIX

Markup notice....................................................    60
Markup minutes...................................................    61
TO PROMOTE FREEDOM AND DEMOCRACY IN VIETNAM; AND CONCERNING EFFORTS TO 
  PROVIDE HUMANITARIAN RELIEF TO MITIGATE THE EFFECTS OF DROUGHT AND 
  AVERT FAMINE IN THE HORN OF AFRICA, PARTICULARLY SOMALIA, ETHIOPIA, 
                          DJIBOUTI, AND KENYA

                              ----------                              


                      WEDNESDAY, FEBRUARY 8, 2012

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                   and Human Rights
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:38 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order.
    Pursuant to notice, the subcommittee meets this afternoon 
to mark up H.R. 1410, the Vietnam Human Rights Act, and H. Res. 
361, concerning efforts to provide humanitarian relief to 
mitigate the effects of drought and to avert famine in the Horn 
of Africa, particularly in Somalia, Ethiopia, Djibouti, and 
Kenya.
    As our members are aware, these measures enjoy strong 
bipartisan support. And there are, right now, competing 
hearings and other events taking place this afternoon, 
including other markups. And I thank my colleagues for coming 
who are in the midst of another markup. Thus, it is the intent 
of the Chair to consider these bills en bloc and by unanimous 
consent, including the substitute amendments sent to you on 
Monday.
    I want to say that we have worked very cooperatively with 
the minority. It has been a very good cooperation on both 
bills. We have vetted virtually every paragraph, every 
sentence, and every word, and now we have before us a finished 
product. All members have copies of those documents before 
them.
    And then after we have concluded our expedited 
consideration, I will be glad to recognize Ms. Bass, of course 
myself, and any other member of the committee who would like to 
speak to either or both of the measures before us. All members 
are given leave to insert written remarks into the record, 
should they choose to do so.
    Seeing that a quorum is present, and without objection, the 
following measures are considered as read; the following 
amendments, which members have before them, are deemed adopted; 
and the measures, as amended, are reported favorably to the 
full Committee on Foreign Affairs: H.R. 1410, the Vietnam Human 
Rights Act; the Smith amendment, No. 68, to H.R. 1410, which is 
the amendment in the nature of a substitute provided to your 
offices on Monday; and H. Res. 361, concerning efforts to 
provide humanitarian relief to mitigate the effects of drought 
and avert famine in the Horn of Africa, particularly Somalia, 
Ethiopia, Djibouti, and Kenya.
    We will include the Payne amendment, No. 46, offered by my 
friend and colleague, Ms. Bass, on behalf of Ranking Member 
Payne, who I would point out is very ill and cannot be here 
today. And this is an amendment in the nature of a substitute, 
which was also sent to each office on Monday.
    Hearing no objection, it is so ordered. The amended bills 
are adopted. And, without objection, the staff is directed to 
make technical and conforming changes.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
1    
    Mr. Smith. Now that we have completed that portion, I would 
like to--and I thank my colleagues for coming from their 
markups to be here for it, and please stay as long as you can--
but I would like to now speak to the first bill and then yield 
to my good friend and my colleague, Ms. Bass, to speak to the 
Payne bill.
    I say to my colleagues, as the subcommittee heard from 
several of our witnesses at a hearing on January 24th, last 
month, the Vietnamese Government continues to be an egregious 
violator of a broad array of human rights. The testimony we 
heard confirmed that religious, political, and ethnic 
persecution continue and, in many cases, is actually 
increasing, and that Vietnamese officials continue to lay out 
the welcome mat for forced labor as well as sex traffickers.
    In particular, we heard from a Vietnamese woman who 
courageously fought for her own rights and those of her co-
workers when they were trafficked to Jordan with the complicity 
of the Vietnamese Government officials.
    We also heard from Dr. Nguyen Dinh Thang, the executive 
director of Boat People SOS, who recently traveled to Thailand 
to investigate human rights violations in Vietnam. Dr. Thang 
provided extensive details about current labor trafficking, 
forced labor, and disturbing denials by the U.N. High 
Commissioner on Refugees of Vietnamese labor and sex 
trafficking victims.
    In addition, our witnesses provided deeply disturbing 
photographs, evidence of torture, and showed a video of the 
Vietnamese military destroying an entire village of Hmong 
Christians.
    It is imperative that the United States Government send an 
unequivocal message to the Vietnamese regime that it must end 
its human rights abuses against its own citizens. For this 
reason, I reintroduced the Vietnam Human Rights Act and I have 
brought it before the committee for consideration today.
    The Foreign Affairs Committee adopted my amendments on the 
promotion of human rights in Vietnam to H.R. 2583, the Foreign 
Relations Authorization Act for Fiscal Year 2012 last July, and 
much of that is reflected in this bill today. I note 
parenthetically that the House has twice passed the Vietnam 
Human Rights Act. Sadly, it has languished and then died in the 
Senate, but we have every intention of making sure that this 
legislation is not treated so this time.
    The purpose of H.R. 1410 is to promote the development of 
freedom and democracy in Vietnam. It seeks to do so primarily 
by stipulating that the United States can increase its 
assistance to Vietnam above Fiscal Year 2011 levels only when 
the President is able to certify that the Government of Vietnam 
has made substantial progress in establishing a democracy and 
promoting human rights, including: Respecting freedom of 
religion and releasing all religious prisoners; respecting 
rights to freedom of expression, assembly, and associations; 
releasing all political prisoners, independent journalists, and 
labor activists; repealing and revising laws that criminalize 
peaceful dissent, independent media, unsanctioned religious 
activities, and nonviolent demonstrations in accordance with 
international human rights standards; respecting the human 
rights of members of all ethnic groups; and taking all 
appropriate steps, including prosecution of government 
officials, to end any government complicity in human 
trafficking.
    In addition to such a certification, the United States 
would have to increase funding for human rights and rule of law 
programming in Vietnam in an amount equal to or greater than 
the increase in non-humanitarian assistance. The legislation 
includes a waiver of the increase certification requirement for 
any year in which the President determines that increased non-
humanitarian assistance to Vietnam would promote the purpose of 
the act or would otherwise be in the national interest of the 
United States of America. The bill would not prevent increased 
funding to the Vietnamese Government for disaster relief, food, 
medicine, refugees, and efforts to combat HIV/AIDS.
    I want to thank my colleagues for supporting this 
legislation. We have a very large number of bipartisan co-
sponsors on the bill. And I just, again, want to thank my 
colleagues for their support of the bill.
    I would like to yield to Ms. Bass for her comments, 
especially on H. Res. 361.
    Ms. Bass. Thank you, Chairman Smith. I want to join you in 
wishing my colleague, Mr. Payne, best wishes. I hope he gets 
better soon. And I am happy to enter these remarks on his 
behalf.
    Two weeks ago, this subcommittee held a hearing on the 
human rights situation in Vietnam. At that hearing, we heard 
how, under the authoritarian rule of the Vietnamese Communist 
Party, the repression of activists and dissidents has recently 
intensified. Through unlawful arrests and detainment, the 
government has suppressed its people's right to expression, 
assembly, and association.
    NGOs have reported that detainees are subject to forced 
labor, torture, and even death. In 2011 alone, 21 people died 
in police custody. Ethnic minorities, such as the Montagnards 
and Hmong, have faced abuse and discrimination. Religious 
minorities are also persecuted.
    This bill is in response to these human rights abuses and 
would condition additional U.S. aid to Vietnam on improvement 
in these areas. While the U.S. should not support government-
sponsored oppression, I am concerned that by putting conditions 
on foreign aid, we risk harming the innocent people this bill 
aims to help.
    Additionally, I fail to see how Vietnam is an exception. If 
we are to apply more stringent human rights conditions to U.S. 
aid, then those conditions should be applied across the board 
instead of singling out any one nation.
    That being said, this bill does not end aid to Vietnam but, 
rather, freezes it at the Fiscal Year 2011 level of $125 
million and includes a Presidential waiver. Therefore, I will 
vote in favor of this bill and encourage my colleagues to do 
the same.
    I yield back.
    Mr. Smith. Thank you, Ms. Bass.
    I would like to now move on to House Res. 361, sponsored by 
Ranking Member Donald Payne and the amendment in the nature of 
a substitute.
    This resolution calls on the U.S. Government to continue to 
help alleviate the impact of the humanitarian emergency 
conditions prevailing in East Africa. Our subcommittee held 
several hearings on East Africa's various humanitarian crises 
last year, including the Somalia hearing in July, the Southern 
Kordofan hearing in August, and the East Africa famine hearing 
in September. This measure before us details the crisis and 
suggests steps to overcome the tragedy of hunger and disease 
afflicting the people in the Horn of Africa.
    Despite the easing of famine conditions in central and 
southern Somalia, the drought in East Africa continues to 
affect more than 13 million people in Somalia, Kenya, Ethiopia, 
and Djibouti. Even with the improvements, the food security 
outlook for the Horn of Africa from January to March 2012 
remains fragile, according to the U.S. Agency for International 
Development, due to a loss of livelihood assets during 
successive seasons of failed rains, conflict, livestock 
disease, above-normal food and non-food prices, as well as 
flooding.
    The drought in East Africa was part of a persistent weather 
trend in the region. And while drought is one reason for food 
shortages, it has been exacerbated by stagnating agricultural 
development and unsustainable forms of livelihood.
    In our July 7th Somalia hearing, Nancy Lindborg, Assistant 
Administrator in USAID's Bureau for Democracy, Conflict, and 
Humanitarian Assistance, raised the issue of the long-term need 
for changes in livelihoods in the region. H. Res. 361 addresses 
the issue of sustainable use of natural resources as a means of 
ensuring food security in the region in the long term.
    In Somalia, the hardest-hit country in the region, the 
terrorist group al-Shabaab has obstructed delivery of 
humanitarian assistance and directly threatened aid agencies. 
It is also interrogating aid workers and has accused them of 
spying for the West or proselytizing. Maritime piracy and the 
hijacking of aid shipments has also hindered the provision of 
aid. The result was an estimated 2.2 million people in southern 
Somalia, representing some 60 percent of those who remained in 
the country at one point, in need of aid, but out of reach of 
most aid agencies.
    H. Res. 361 calls on all parties in the conflict in 
Somalia, including al-Shabaab, to allow unrestricted access to 
international and local nongovernmental humanitarian 
organizations, especially for the benefit of the most 
vulnerable among them.
    This resolution acknowledges the more than $870 million the 
United States Government has devoted to meeting the emergency 
needs in East Africa and urges other donors in international 
and local nongovernmental agencies to join us in the 
development activities on behalf of the people of the Horn of 
Africa.
    H. Res. 361 is a very important piece of legislation, and I 
know my colleagues, as we go to the full committee and to the 
floor, will support it, and I hope it will be unanimous.
    Ms. Bass?
    Ms. Bass. Thank you again, Mr. Chairman.
    Mr. Payne's amendment in the nature of a substitute to 
House Resolution 361 updates the resolution to reflect the 
current situation in the Horn of Africa and calls on U.S. 
donors and local and international NGOs to continue their 
support of the people of Somalia, Kenya, Ethiopia, and Djibouti 
affected by the humanitarian crisis.
    Last year, the Horn of Africa experienced the worst drought 
in 60 years. Due to decades of internal conflict, poor 
infrastructure, and a myriad of other factors, the region was 
ill-equipped to handle a drought of this magnitude. What 
followed was one of the most severe humanitarian crises of our 
time. At the height of the crisis, 6 regions of Somalia were 
declared a famine, 750,000 people were at risk of death, 
millions were forced to flee their homes, and tens of thousands 
of children died of malnourishment.
    Given al-Shabaab's control over much of Somalia, aid 
organizations were unable to reach many of those affected. The 
amendment also acknowledges the deteriorating security 
situation at refugee camps in Dadaab in Kenya and Dolo Ado in 
Ethiopia which has resulted in the limited delivery of 
humanitarian assistance. The situation is particularly 
worrying, complex, and tenuous in the Dadaab refugee camps, 
where the threat of improvised explosive devices, kidnappings, 
vehicle hijackings, and banditry remains high.
    This resolution also recognizes the sacrifices that aid 
workers make every day as they risk their own lives while 
trying to save the lives of others. With the U.S. leadership, 
the international community responded. I commend the Obama 
administration for their commitment of over $870 million to 
implement emergency and long-term interventions to address the 
crisis.
    The resolution encourages continued coordinated long-term 
interventions that build up the resilience of local populations 
and link relief with development.
    Agriculture is a key factor in establishing long-term peace 
and stability in the region. Adequate rainfall between October 
and December 2011, coupled with agricultural and humanitarian 
interventions, allowed farmers to produce and buy more food. As 
part of this emergency response and with support from the U.S., 
the United Nations Food and Agriculture Organization 
distributed seeds and fertilizer to Somali farmers.
    This mixture of agriculture and humanitarian intervention 
has contributed to a significant reduction in local cereal 
prices in most of the vulnerable areas in the south, improving 
purchasing power for poor households.
    Last week, the United Nations lifted the famine 
declaration, but a severe humanitarian crisis persists. Despite 
favorable rains and successful interventions, 31 percent of the 
Somali population remains in crisis.
    Thank you very much. I yield back.
    Mr. Smith. Ms. Buerkle?
    Ms. Buerkle. Thank you, Mr. Chairman. I just want to 
commend your leadership and the entire committee's bipartisan 
effort to promote humanitarian efforts. And I look forward to 
this getting to the House floor and having bipartisan support.
    I thank you.
    Mr. Smith. I want to thank Ms. Buerkle. I want to thank Ms. 
Bass. I want to thank staffs on both sides of the aisle for 
their expertise and cooperation in working on these bills. 
Thank you.
    Without objection, the hearing is adjourned. And I thank 
you again for your attendance and for your support.
    [Whereupon, at 2:50 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
